                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-00026-248




       Community Based Outpatient 

            Clinic Reviews 

                   at 

          VA Butler Healthcare 

              Butler, PA 





July 19, 2013


                      Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

  To Report Suspected Wrongdoing in VA Programs and Operations 

                      Telephone: 1-800-488-8244 

                      E-Mail: vaoighotline@va.gov

   (Hotline Information: http://www.va.gov/oig/hotline/default.asp)

                                                                   CBOC Reviews at VA Butler Healthcare



                                           Glossary
                       C&P       credentialing and privileging
                       CBOC      community based outpatient clinic
                       CDC       Centers for Disease Control and Prevention
                       EHR       electronic health record
                       EOC       environment of care
                       FPPE      Focused Professional Practice Evaluation
                       FY        fiscal year
                       LCSW      licensed clinical social worker
                       MH        mental health
                       MOVE!     Managing Obesity in Veterans Everywhere
                       MSEC      Medical Staff Executive Committee
                       NC        noncompliant
                       NCP       National Center for Health Promotion and
                                 Disease Prevention
                       OIG       Office of Inspector General
                       PII       personally identifiable information
                       VHA       Veterans Health Administration
                       VISN      Veterans Integrated Service Network
                       WH        women’s health




VA OIG Office of Healthcare Inspections
                                                                                 CBOC Reviews at VA Butler Healthcare



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        4


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics .............................................................................................              7

  C&P ........................................................................................................................    8

  EOC and Emergency Management ........................................................................                           9


Appendixes
  A. VISN 4 Director Comments ...............................................................................                    12

  B. VA Butler Healthcare Director Comments .........................................................                            13

  C. OIG Contact and Staff Acknowledgments .........................................................                             16

  D. Report Distribution .............................................................................................           17





VA OIG Office of Healthcare Inspections
                                                           CBOC Reviews at VA Butler Healthcare



                                Executive Summary 

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the CBOCs during the week of May 13, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs (see Table 1).

    VISN        Facility                   CBOC Name             Location
                                           Armstrong County      Ford City, PA
       4        VA Butler Healthcare
                                           Lawrence County       New Castle, PA
                                     Table 1. Sites Inspected

Review Results: We made recommendations in two review areas.

Recommendations:       The VISN and Facility Directors, in conjunction with the

respective CBOC managers, should take appropriate actions to: 


   Ensure that clinicians screen patients for tetanus vaccinations. 


   Ensure that clinicians administer tetanus vaccinations when indicated. 


   Ensure that clinicians administer pneumococcal vaccinations when indicated.


   Ensure signage is installed to direct physically challenged patients to the 

    handicapped accessible entrance of the Armstrong County CBOC.

   Ensure that all exit routes are clearly identified at the Armstrong County CBOC.

   Ensure that PII is protected by securing laboratory specimens during transport from
    the Armstrong County CBOC to the contracted processing facility.


VA OIG Office of Healthcare Inspections                                                      i
                                                       CBOC Reviews at VA Butler Healthcare


Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes
A and B, pages 12–15, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed




                                                    JOHN D. DAIGH, JR., M.D.
                                                   Assistant Inspector General for
                                                        Healthcare Inspections




VA OIG Office of Healthcare Inspections                                                  ii
                                                                     CBOC Reviews at VA Butler Healthcare



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                                         CBOC Reviews at VA Butler Healthcare


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. Two CBOCs were randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                    2
                                                                                                                  CBOC Reviews at VA Butler Healthcare



                                                               CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                                    Uniques FY            Visits FY
                                                                                           6
VISN            Parent Facility                  CBOC Name                       Locality             20127                 20127         CBOC Size8
                                           Armstrong County
                                                                                   Rural                1,436               3,092             Small
                                           (Ford City, PA)
                                           Clarion County
                                                                                   Rural                1,112               3,229             Small
                                           (Foxburg, PA)
                                           Cranberry Township
    4       VA Butler Healthcare                                                   Urban                1,731               5,263           Mid-Size
                                           (Cranberry Township, PA)
                                           Lawrence County
                                                                                   Rural                1,846               6,051           Mid-Size
                                           (New Castle, PA)
                                           Mercer County
                                                                                   Urban                2,254               8,920           Mid-Size
                                           (Hermitage, PA)
                                                               Table 2. CBOC Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                  3
                                                                      CBOC Reviews at VA Butler Healthcare



                     WH and Vaccination EHR Reviews 

                      Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.9 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.10
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.11 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
                               Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 20 patients who received a cervical cancer screening at the Butler VA
Healthcare’s CBOCs.

Generally the CBOCs assigned to the VA Butler Healthcare were compliant with the
review areas; therefore, we made no recommendations.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of
vaccinations.12 The NCP provides best practices guidance on the administration of
vaccinations for veterans. The CDC states that although vaccine-preventable disease

9
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

10
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

11
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 

12
   VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009. 



VA OIG Office of Healthcare Inspections                                                                         4
                                                                  CBOC Reviews at VA Butler Healthcare


levels are at or near record lows, many adults are under-immunized, missing
opportunities to protect themselves against diseases such as tetanus and
pneumococcal.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
that have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review elements
marked as noncompliant needed improvement. Details regarding the findings follow the
table.

       NC                                       Areas Reviewed
        X           Staff screened patients for the tetanus vaccination.
        X           Staff administered the tetanus vaccination when indicated.
                    Staff screened patients for the pneumococcal vaccination.
        X           Staff administered the pneumococcal vaccination when indicated.
                    Staff properly documented vaccine administration.
                    Managers developed a prioritization plan for the potential occurrence of
                    vaccine shortages.
                                          Table 4. Vaccinations

Tetanus Vaccination Screening. Through clinical reminders, VHA requires that CBOC
clinicians screen patients for tetanus vaccinations.13 We reviewed 75 patients’ EHRs
and did not find documentation of tetanus vaccination screening in 22 EHRs.

Tetanus Vaccination Administration. The CDC recommends that, when indicated,
clinicians administer the tetanus vaccination.14 We reviewed 53 patients’ EHRs and did
not find documentation in 12 EHRs that the tetanus vaccination had been administered.

Pneumococcal Vaccination Administration for Patients with Pre-Existing Conditions.
The CDC recommends that at the age of 65, individuals that have never had a
pneumococcal vaccination should receive one.15 For individuals 65 and older who have
received a prior pneumococcal vaccination, a one-time revaccination is recommended if
they were vaccinated 5 or more years previously and were less than 65 years of age at
the time of the first vaccination. We reviewed the EHRs of five patients with preexisting
conditions who received their first vaccine prior to the age of 65. We did not find
documentation in any of the EHRs indicating that their second vaccination had been
administered.



13
   VHA Handbook 1120.05.
14
   CDC, http://www.cdc.gov/vaccines/vpd-vac/.
15
   CDC, http://www.cdc.gov/vaccines/vpd-vac/.


VA OIG Office of Healthcare Inspections                                                             5
                                                   CBOC Reviews at VA Butler Healthcare


Recommendations

1. We recommended that managers ensure that clinicians screen patients for tetanus
vaccinations.
2. We recommended that managers ensure that clinicians administer tetanus
vaccinations when indicated.
3. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.




VA OIG Office of Healthcare Inspections                                              6
                                                                    CBOC Reviews at VA Butler Healthcare



                                  Onsite Reviews 

                          Results and Recommendations 

 CBOC Characteristics
 We formulated a list of CBOC characteristics that includes identifiers and descriptive
 information for the randomly selected CBOCs (see Table 5).

                                            Armstrong County                    Lawrence County
     VISN                                            4                                  4

     Parent Facility                        VA Butler Healthcare               VA Butler Healthcare

     Types of Providers                            LCSW                               LCSW
                                              Nurse Practitioner              Primary Care Physician
                                           Primary Care Physician                    Dietitian
                                                  Dietitian
     Number of MH Uniques, FY                        82                                 84
     2012
     Number of MH Visits, FY 2012                   331                                362

     MH Services Onsite                             Yes                                Yes

     Specialty Care Services                        WH                               Podiatry
     Onsite                                                                            WH
     Ancillary Services Provided                  Nutrition                          Nutrition
     Onsite
     Tele-Health Services                      Dermatology                        Dermatology
                                                    MH                                 MH
                                                 MOVE!16                             MOVE!
                                              Palliative Care                    Palliative Care
                                              Retinal Imaging                    Retinal Imaging
                                         Table 5. Characteristics




16
     VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                                7
                                                           CBOC Reviews at VA Butler Healthcare


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.17 Table 6 shows the areas reviewed for this topic.

           NC                                     Areas Reviewed
                         Each provider’s license was unrestricted.
                                         New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to MSEC.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the MSEC
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the MSEC.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or MSEC list
                         documents reviewed and the rationale for conclusions reached for
                         granting licensed independent practitioner privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.
                         The determination to continue current privileges was based in part
                         on results of ongoing professional practice evaluation activities.
                                          Table 6. C&P

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.


17
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                      8
                                                         CBOC Reviews at VA Butler Healthcare


EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
CBOC identified as noncompliant needed improvement. Details regarding the findings
follow the table.

        NC                                      Areas Reviewed
                    The CBOC was Americans with Disabilities Act-compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, and
                    counters.
    Armstrong       Signage and wayfinding is adequate.
     County
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
    Armstrong       Exit signs were visible from any direction.
     County
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
                    Privacy was maintained.
                    Patients’ PII information was secured and protected.
    Armstrong       Laboratory specimens were transported securely to prevent
     County         unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.
                    Information technology security rules were adhered to.
                    There was alcohol hand wash or a soap dispenser and sink available
                    in each examination room.
                    Sharps containers were less than 3/4 full.
                    Safety needle devices were available for staff use (e.g., lancets,
                    injection needles, phlebotomy needles).
                    The CBOC was included in facility-wide EOC activities.
                                          Table 7. EOC



VA OIG Office of Healthcare Inspections                                                    9
                                                                    CBOC Reviews at VA Butler Healthcare


Physical Access. VHA’s Signage Design Guide prescribes the use of signs to identify
the location of the building entrances, the configuration of the corridors, and the desired
path of travel within a building.18 This system is known as “wayfinding.” The
Armstrong County CBOC is located on the second floor in leased space within a multi-
office building complex. The main entrance of the building is inaccessible to
handicapped patients, and the absence of wayfinding signage to the clinic’s
handicapped entrance encumbers physical access to the Armstrong County CBOC.

Exit Signs. VHA requires that every exit be clearly visible or the route to reach every
exit be conspicuously indicated. The Armstrong County CBOC had an L-shaped
hallway that leads to an exit; however, the exit was not visible from all vantage points,
and the route to the exit was not identified.19

PII. We found that the transportation of laboratory specimens was not secured at the
Armstrong County CBOC. CBOC staff placed the specimens in unsecured containers,
and a courier transported the specimens to the contracted processing facility. The
specimens disclosed the patients’ names and social security numbers. The containers
were unsecured; therefore, staff could not ensure the security of patients’ PII.20

Recommendations

4. We recommended that managers ensure that signage is installed to direct physically
challenged patients to the handicapped accessible entrance of the Armstrong County
CBOC.

5. We recommended that managers ensure all exit routes be clearly identified at the
Armstrong County CBOC.

6. We recommended that managers ensure that PII is protected by securing laboratory
specimens during transport from the Armstrong County CBOC to the contracted
processing facility.

Emergency Management

VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.21 Table 8 shows the areas
reviewed for this topic.




18
   VHA Handbook 1805.05, Interior Design Operations and Signage, July 1, 2011.
19
   NFPA 1, Fire Code, 2012 Edition, General Requirements, Chapter 4.
20
   The Health Insurance Portability and Accountability Act (HIPAA), 1996.
21
   VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                              10
                                                         CBOC Reviews at VA Butler Healthcare


        NC                                      Areas Reviewed
                     There was a local medical emergency management plan for this
                     CBOC.
                     The staff articulated the procedural steps of the medical emergency
                     plan.
                     The CBOC had an automated external defibrillator onsite for cardiac
                     emergencies.
                     There was a local MH emergency management plan for this CBOC.
                     The staff articulated the procedural steps of the MH emergency
                     plan.
                                 Table 8. Emergency Management

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.




VA OIG Office of Healthcare Inspections                                                   11
                                                        CBOC Reviews at VA Butler Healthcare
                                                                                Appendix A
                            VISN 4 Director Comments


Department of
Veterans Affairs                                             Memorandum


       Date:           July 1, 2013

       From:           Director, VISN 4 (10N4)

       Subject:        CBOC Reviews at VA Butler Healthcare

       To:             Director, 54BA Healthcare Inspections Division (54BA)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)


        I have reviewed the information provided by VA Butler Healthcare and I am
        submitting it to your office as requested. I concur with all responses and
        target dates.

        If you have any questions or require additional information, please contact
        Barbara Forsha, VISN 4 Quality Management Officer at 412-822-3290.




        Michael E. Moreland, FACHE




VA OIG Office of Healthcare Inspections                                                  12
                                                         CBOC Reviews at VA Butler Healthcare
                                                                                 Appendix B
                VA Butler Healthcare Director Comments



               Department of
               Veterans Affairs                              Memorandum


       Date:           June 26, 2013

       From:           Director, VA Butler Healthcare (529/00)

       Subject:        CBOC Reviews at VA Butler Healthcare

       To:             Director, VISN 4 (10N4)

       The findings from the VA Butler Healthcare Community Based Outpatient
       Clinic Review by the Office of the Inspector General, conducted during the
       week of May 13, 2013, have been reviewed.

       Attached is the facility’s response addressing all recommendations that
       are in progress and those that have been completed.




       JOHN A. GENNARO




VA OIG Office of Healthcare Inspections                                                   13
                                                      CBOC Reviews at VA Butler Healthcare


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that clinicians screen patients for tetanus
vaccinations.

Concur

Target date for completion: Completed June 25, 2013

A Decision Support Tool (Clinical Reminder) that assists the healthcare providers and
healthcare systems to implement recommended actions has been initiated for the
screening of the Td and Tdap vaccines. A weekly report will be generated allowing the
Associate Chief Nurse for Ambulatory Care to monitor the completion of the Td/Tdap
vaccine screenings. Findings will be reported quarterly to the Medical Executive
Committee for follow up actions as needed.

2. We recommended that managers ensure that clinicians administer tetanus
vaccinations when indicated.

Concur

Target date for completion: Completed June 25, 2013

A Decision Support Tool (Clinical Reminder) that assists the healthcare providers and
healthcare systems to implement recommended actions has been initiated for the
administration of the Td and Tdap vaccines. A weekly report will be generated allowing
the Associate Chief Nurse for Ambulatory Care to monitor the completion of the
Td/Tdap vaccine administration. Findings will be reported quarterly to the Medical
Executive Committee for follow up actions as needed.

3. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.

Concur

Target date for completion: June 25, 2013

A Decision Support Tool (Clinical Reminder) that assists the healthcare providers and
healthcare systems to implement recommended actions has been initiated for the
administration of the pneumonia re-vaccinations. A weekly report will be generated
allowing the Associate Chief Nurse for Ambulatory Care to monitor the completion of the




VA OIG Office of Healthcare Inspections                                                14
                                                       CBOC Reviews at VA Butler Healthcare


pneumonia re-vaccinations. Findings will be reported quarterly to the Medical Executive
Committee for follow up actions as needed.

4. We recommended that managers ensure that signage is installed to direct physically
challenged patients to the handicapped accessible entrance of the Armstrong County
CBOC.

Concur

Target date for completion: August 16, 2013

Wayfaring signage has been constructed and will be installed at the entrance to the
Armstrong CBOC in order to improve the identification of the handicapped entrance into
the building.

5. We recommended that managers ensure all exit routes be clearly identified at the
Armstrong County CBOC.

Concur

Target date for completion: August 16, 2013

Exit signage will be installed in the “L” shaped corridor of the Armstrong CBOC so that
the exit is clearly visible from all vantage points and the route to the exit identified.

6. We recommended that managers ensure that PII is protected by securing laboratory
specimens during transport from the Armstrong County CBOC to the contracted
processing facility.

Concur

Target date for completion: Completed June 25, 2013

Secure medical transport coolers are in use at the Armstrong CBOC in order to secure
the personal identifiable information of our Veterans.




VA OIG Office of Healthcare Inspections                                                 15
                                                         CBOC Reviews at VA Butler Healthcare
                                                                                 Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Melanie Oppat, MEd., LPN, Project Leader
Contributors            Terri Julian, Ph.D., Team Leader
                        Jennifer Christensen, DPM
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Cynthia Gallegos
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Joanne Wasko, LCSW
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                   16
                                                     CBOC Reviews at VA Butler Healthcare
                                                                             Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 4 (10N4)
Director, VA Butler Healthcare (529/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Robert P. Casey, Jr., Patrick J. Toomey
U.S. House of Representatives: George Joseph “Mike” Kelly, Jr., Keith Rothfus,
 Glenn W. Thompson


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                               17
